No. 20-827

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
AKA ABU ZUBAYDAH, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF AUTHORITIES

Cases:

Page

14 Penn Plaza LLC v. Pyett, 556 U.S. 247 (2009) ................ 6
Military Audit Project v. Casey, 656 F.2d 724
(D.C. Cir. 1981) ................................................................. 8, 9
Rivero v. City & Cnty. of S.F., 316 F.3d 857
(9th Cir. 2002) ........................................................................ 6
Salim v. Mitchell:
No. 15-cv-286, 2016 WL 5843383 (E.D. Wash.
Oct. 4, 2016) .................................................................. 6
268 F. Supp. 3d 1132 (E.D. Wash. 2017) ......................... 6
Tenet v. Doe, 544 U.S. 1 (2005) ............................................... 5
United States v. Reynolds, 345 U.S. 1 (1953) ....................... 9
Statutes:
Alien Tort Statute, 28 U.S.C. 1350 ........................................ 6
28 U.S.C. 1782 ........................................................................ 11
28 U.S.C. 1782(a) ................................................................... 11
Miscellaneous:
S. Rep. No. 288, 113th Cong., 2d Sess. (2014)................... 4, 5

(I)

In the Supreme Court of the United States
No. 20-827
UNITED STATES OF AMERICA, PETITIONER
v.
ZAYN AL-ABIDIN MUHAMMAD HUSAYN,
AKA ABU ZUBAYDAH, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

REPLY BRIEF FOR THE PETITIONER

The divided Ninth Circuit panel in this state-secrets
case held that discovery may proceed against former
Central Intelligence Agency (CIA) contractors who
worked on the CIA’s former detention and interrogation program (CIA Program), where the classified information obtained in discovery would be used exclusively in a foreign proceeding probing CIA intelligence
activity that allegedly occurred in Poland. The court
did so by substituting its own assessment of nationalsecurity risks for the considered judgment of the CIA
Director. The 12 judges who dissented from the denial
of rehearing en banc correctly determined that the
panel’s decision rests on “grave legal errors” and “poses
a serious risk to our national security.” Pet. App. 86a.
Those errors and risk amply warrant this Court’s review.
The Ninth Circuit’s decision reflects a fundamentally
misguided approach to national-security litigation that
(1)

2
poses significant risks to the Nation’s intelligence capabilities. As the petition describes, the court of appeals
departed from what previously had been highly deferential review of the Executive Branch’s predictive judgments about national-security harms in a manner that,
as the dissenting judges explained, led it to give no “apparent deference to the CIA Director’s declarations.”
Pet. 32-33 (quoting Pet. App. 97a); see Pet. 17-19. The
court then further departed from precedent by adopting a view never previously accepted by courts: that
compelled disclosures by former CIA contractors would
not harm the national security because such contractors
are “private parties” and, as a result, compelling them
to disclose information they obtained while engaged in
clandestine activities for the CIA would not require the
United States itself to confirm or deny anything. Pet.
20-23, 33. The court went on to deem classified information about the alleged identity of the CIA’s intelligence partners to be “public knowledge” based on public speculation, unofficial statements by former foreign
officials, and the judgment of a foreign tribunal that
deemed Poland’s refusal to confirm or deny alleged intelligence cooperation as warranting an adverse inference that Poland did host a CIA facility. Pet. 23-28, 3334.
The court of appeals’ errors would be significant
enough in a case in which a federal court must adjudicate domestic rights to which the requested discovery
relates. But they are substantially more grave here,
where the classified information sought in discovery
would be used exclusively in a foreign proceeding considering wholly foreign legal obligations outside the supervisory power of the federal judiciary, and where the

3
very purpose of that proceeding is to investigate alleged
clandestine activities of the CIA abroad. Pet. 29-32, 34.
Respondents’ arguments that review by this Court is
unwarranted in the face of these manifold errors by the
court of appeals are without merit. Indeed, those arguments underscore the need for this Court’s review.
1. a. Respondents’ leading contention (Br. in Opp.
(Br.) 16-19) is that this Court should defer review because the decision below is interlocutory and the panel’s
decision might not lead to the disclosure of “privileged
information” on remand. That contention lacks merit
for at least two reasons.
First, respondents disregard that the Ninth Circuit
has already determined that what the CIA Director explained was “the central issue that underlies this entire
matter”—whether “the CIA conducted detention and
interrogation operations in Poland,” Pet. 9 (citation
omitted)—was not privileged. The court held that
whether “the CIA operated a detention facility in Poland,” information about interrogation techniques and
conditions “in that [purported] detention facility,” and
pertinent details about Abu Zubaydah’s alleged “treatment there” are “basically public knowledge,” not state
secrets, and thus unprivileged. Pet. App. 17a, 21a (emphases added). Respondents’ discovery requests are
predicated on their singular allegation about Poland’s
involvement, which the United States can neither confirm nor deny without risking significant harm to the
national security.
Second, respondents identify no scenario under which
the government could on remand protect from discovery such purported “public knowledge” about Poland’s
alleged role. As the petition explains (Pet. 3-6), the
United States has already declassified significant details

4
about Abu Zubaydah’s treatment in CIA detention, including information reflected in public Senate Report
No. 288, 113th Cong., 2d Sess. (2014) (SSCI Report).
And respondents acknowledge that they seek discovery
of “the details of Abu Zubaydah’s [purported] torture
in Poland, the nature of his medical treatment, and the
conditions of his confinement.” Br. 9-10 (emphasis
added). Given the Ninth Circuit’s holding that Poland’s
alleged connection to Abu Zubaydah’s detention is public knowledge and unprivileged, and in light of the government’s prior declassification of information about
his treatment in CIA detention, the intersection of those
two sets of information would not be protected by the
state-secrets privilege on remand. While certain information concerning, for instance, “the identities and
roles of foreign individuals” might be protected, Pet.
App. 20a, such protection would not under the Ninth
Circuit’s decision be a basis to avoid discovery into the
more basic and central issue whether or not Poland
hosted a clandestine CIA facility at which Abu Zubaydah was detained. That issue permeates the entire
case.*
* Respondents mistakenly assert, based solely on their reading of
the SSCI Report, that it is “categorically false” that Abu Zubaydah
was “an associate and longtime terrorist ally of Osama bin Laden.”
Br. 2-3 (citation omitted). The SSCI Report does not contradict that
description. The report does state that the CIA was incorrect in its
early view that Abu Zubaydah was one of al Qaida’s top three or four
leaders and that CIA records did not support a determination that
he was involved in planning “every major [al Qaida] terrorist operation.” SSCI Report 410-411. But it also discusses intelligence that
Abu Zubaydah was a terrorist facilitator who, inter alia, facilitated
a terrorist training camp, id. at 21 & n.60, and that his interrogation
resulted in 766 disseminated sole-source intelligence reports based
on his “information on ‘al-Qa’ida activities, plans, capabilities, and

5
Allowing discovery to proceed on remand would
therefore pose the very national-security risks that the
government has sought certiorari to prevent. “The possibility that [the] suit may proceed and [a clandestine
intelligence] relationship may be revealed” under the
Ninth Circuit’s decision rejecting the state-secrets privilege “is unacceptable: ‘Even a small chance that some
court will order disclosure of [an intelligence partner’s]
identity could well impair intelligence gathering and
cause [the CIA’s] sources to ‘close up like a clam.’ ”
Tenet v. Doe, 544 U.S. 1, 11 (2005) (citation omitted); see
Pet. 9-10.
b. Respondents relatedly argue (Br. 24-26; see Br.
8-9, 28) that the government’s attempt to preserve secrecy is unwarranted because the government “did not
appeal” the district court’s conclusion that information
about Poland’s alleged role was unprivileged and because, in the Salim litigation, “the same witnesses have
provided extensive public disclosures * * * on the same
topics,” Br. 26. Both contentions are incorrect.
The government intervened as a party in this case in
order to move to quash respondents’ subpoenas. Pet. 9.
Although respondents correctly note (e.g., Br. 12, 24)
that the government did not appeal the district court’s
resulting order, the government had no occasion to appeal from that order granting its motion. See Pet. App.
35a, 60a. And while the government did not agree with
relationships,’ ” “leadership structure,” “decision-making processes,
training, and tactics,” id. at 46 & n.220. The government’s factual
return in Abu Zubaydah’s pending habeas action provides ample
evidence—including from his own six-volume diary—demonstrating
his terrorist activities and connection with al Qaida and bin Laden.
See Doc. 474-1, at 24-67, Husayn v. Mattis, No. 1:08-cv-1360
(D.D.C. Mar. 29, 2017); see, e.g., id. at 24, 33, 35, 44-46 & nn.12-13
(discussing Osama bin Laden).

6
some aspects of the district court’s reasoning, it could
as appellee defend the order quashing the subpoenas on
“any ground appearing in the record.” Rivero v. City &
Cnty. of S.F., 316 F.3d 857, 862 (9th Cir. 2002); accord
14 Penn Plaza LLC v. Pyett, 556 U.S. 247, 273 (2009)
(stating that this principle applies to grounds “rejected”
by the lower court).
Salim, in turn, involved no disclosures materially
similar to those sought here. The three plaintiffs in
Salim sued Mitchell and Jessen under the Alien Tort
Statute, 28 U.S.C. 1350, seeking damages for injuries
allegedly caused by the CIA contractors through their
work on the former CIA Program. Salim v. Mitchell,
268 F. Supp. 3d 1132, 1135-1136, 1138, 1141 (E.D. Wash.
2017). Those damages claims focused on the treatment
of former CIA detainees and did not depend on the locations at which they were purportedly harmed. For
that reason, discovery was able to proceed against the
former contractors without exposing information about
the “aspects of the [former] interrogation program
[that] remain classified,” including “ ‘information pertaining to the location of program facilities * * * and the
names of the countries [that] may have assisted the U.S.
Government in facilitating program-related activities.’ ”
Salim v. Mitchell, No. 15-cv-286, 2016 WL 5843383, at
*4 (E.D. Wash. Oct. 4, 2016) (citation omitted). Respondents themselves acknowledge that, in Salim, each
former CIA detention site was referred to by the “code
name” used by the public SSCI Report, Br. 9, 25-26, and
respondents identify no instance in which Mitchell and
Jessen—or the government—has publicly disclosed
whether any such site was in Poland or other particular
countries. Even the SSCI Report, which was particularly critical of the CIA Program, took great care to

7
protect that highly classified information to avoid damage to the national security. Pet. 5.
2. Respondents provide only a limited defense of the
Ninth Circuit’s actual decision, further underscoring
the need for certiorari. Br. 19-23, 27-29.
a. Respondents first assert (Br. 19-23) that the
Ninth Circuit “applied the same standard” that it previously did in state secrets cases. But respondents ignore
the significant difference between prior decisions and
this one. As the petition explains (Pet. 19, 32-33), the
panel here modified what previously had been highly
deferential review of Executive Branch assessments of
national-security harms, seizing upon the word “skeptical” in a prior Ninth Circuit ruling and determining that
such “skeptical” review was itself “contradictory” to
precedent reflecting “the need to defer to the Executive,” Pet. App. 14a-15a (emphasis added). The panel
majority made no other reference to “deference” in its
opinion and, instead, deemed its “essential obligation”
to be review with “a skeptical eye.” Id. at 17a n.14. Tellingly, the majority failed even to acknowledge the CIA
Director’s explanation of why compelling former CIA
contractors to confirm or deny Poland’s alleged connection to a CIA detention facility would jeopardize the national security notwithstanding the existence of substantial public speculation on the matter. Cf. Pet. 9-10
(discussing explanation). Instead, as the 12 judges dissenting from the denial of rehearing en banc explained,
the court gave no “apparent deference to the CIA Director’s declarations” and thus reached a result creating substantial “national security risks.” Pet. App. 93a,
97a. Had the Ninth Circuit accorded the Director’s
judgment the “utmost deference” provided by other

8
courts of appeals, Pet. 33; see Pet. 18-19, the outcome
would have been different.
b. Respondents dedicate one paragraph to the Ninth
Circuit’s holding that no national-security harm would
result from compelling disclosures from CIA contractors, simply reiterating (Br. 27) the panel’s view that
those “third-party” contractors “cannot officially confirm anything.” But respondents offer no answer to the
government’s explanation (Pet. 20-23, 33) that the statesecrets privilege has long protected against disclosures
by government contractors and that the rule, for obvious reasons, could not be otherwise. Indeed, respondents appear to embrace the panel’s position—which, as
the dissenting judges explained, “no [other] court” has
adopted—thereby “enabl[ing] an end-run around the
privilege,” with “untold risks for our national security.”
Pet. App. 102a-103a.
c. Finally, respondents assert (Br. 27-28) that the
existence of a covert CIA facility in Poland “is already
a matter of public record” and that “the CIA’s cooperation with Poland is no secret at all.” But in the world of
clandestine intelligence operations, where tradecraft is
deployed to cloak the true nature of activities and misdirect attention, things may be uncertain notwithstanding suppositions based on incomplete and circumstantial information. See Military Audit Project v. Casey,
656 F.2d 724, 744 (D.C. Cir. 1981); see also Pet. 23-24
(discussing additional authority). Thus, as the petition
explains (Pet. 23-26), public speculation in the absence
of official government confirmation is insufficient to displace the Executive Branch’s expert, informed judgment that the disclosure of classified information by
those with first-hand knowledge of the Nation’s intelligence activities would harm the national security.

9
Respondents largely have no answer, except to note
(Br. 28) that Military Audit Project’s decision about the
classified mission of the Glomar Explorer arose in the
context of a “statutory exception to [Freedom of Information Act] requirements, not an evidentiary privilege.” But the “sole issue” in that FOIA case was
whether, notwithstanding substantial speculation in
public sources, the compelled disclosure of information
about the mission “ ‘reasonably could be expected to
cause serious damage to the national security.’ ” Military Audit Project, 656 F.2d at 738 (citation omitted);
see id. at 736-738. That question directly tracks the
state-secrets inquiry, which asks—even after a litigant
has made a “strong showing of necessity” for the discovery or use of information—whether “there is a reasonable danger that compulsion of the evidence will expose military [or other] matters which, in the interest of
national security, should not be divulged.” United
States v. Reynolds, 345 U.S. 1, 10-11 (1953). And given
the “utmost deference” owed to the government’s assessment of national-security harm in this context, Pet.
18-19, 33, the teachings of Military Audit Project apply
to this case with particular force.
Respondents incorrectly attempt to distinguish this
case from Military Audit Project on the ground that
the government in the latter case had provided information about the Glomar Explorer to the extent “consistent with national security.” Br. 28 (citation omitted). The government’s opposition to discovery here,
however, reflects that discovery cannot proceed on remand without confirming or denying whether or not Poland hosted a CIA detention facility—the very information that the government asserted the state-secrets
privilege to protect. Unlike Salim, where the plaintiffs

10
sought information on the treatment of former CIA detainees irrespective of the location(s) of their detention
(which remained protected), respondents’ discovery is
unavoidably based on their contention that alleged CIA
activity occurred in a particular location: Poland.
Respondents argue (Br. 27-28) that no claim of harm
to national security is credible because Polish prosecutors have sought information about alleged CIA activity
for their investigation. But respondents, like the Ninth
Circuit, ignore the CIA Director’s explanation that even
after “time passes, media leaks occur, or the political and
public opinion winds change,” it remains “critical” to protect “the location of detention facilities” and “the identity of [the CIA’s] foreign partners” because the CIA’s
ability to “convince foreign intelligence services to work
with us” depends on “mutual trust” and our partners’
enduring confidence that their role will be protected
even if new “officials come to power” who may “want to
publicly atone or exact revenge for the alleged misdeeds
of their predecessors.” Pet. App. 135a-136a; see Pet. 910, 21. Polish prosecutors, of course, can always attempt to obtain information about alleged actions on
Polish soil from within their own government. And the
fact that they have sought such information from
United States sources only underscores the Director’s
explanation of why foreign intelligence cooperation must
be protected. Compelled disclosure of that information
by a federal court risks not only the future cooperation
of a foreign partner’s intelligence and security services
whose role might thereby be confirmed, but also that of
“other foreign intelligence or security services” that
would recognize the United States’ failure to protect the
confidentiality of “our coordinated clandestine activities.” Pet. App. 132a (emphasis added).

11
d. Respondents largely avoid the government’s arguments (Pet. 29-32) that their discovery of information
destined solely for a foreign proceeding warrants
heighted deference to the Executive Branch’s assessment of national-security harm. Respondents instead
contend (Br. 29) that this “pure discovery matter in aid
of a foreign proceeding” is “atypical” among state secrets cases and that this Court’s review is unwarranted
for that reason. But the extraordinary nature of respondents’ attempt to obtain evidence about alleged
CIA clandestine intelligence activity in Poland for export to a foreign proceeding investigating that very subject only highlights the extent of the Ninth Circuit’s error.
The balance that this Court has struck in the statesecrets privilege is a balance between a domestic court’s
authority to adjudicate obligations under the laws of the
United States and the Nation’s need for secrecy, as
here, in national-security contexts. Pet. 29-30. If no domestic rights are at issue and information is sought
solely for use in foreign proceedings, that balance tips
decidedly against allowing federal courts to extract information for foreign purposes where doing so would
create any plausible risk to the national security of the
United States. Nothing in 28 U.S.C. 1782(a) reflects
any intent by Congress to facilitate proceedings before
foreign tribunals at the cost of this Nation’s core interests in protecting its own national security. Pet. 30-31.
This Court should determine whether the Ninth Circuit
should have deferred to the CIA Director’s considered
judgment regarding harm to the national security before Section 1782 may be used in this case to extract
classified information about alleged clandestine CIA activities abroad solely for use in a foreign proceeding.

12
* * * * *
For the foregoing reasons and those stated in the petition for a writ of certiorari, the petition should be granted.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

MARCH 2021

